THE HADDEN LAW FIRM, LLC
TRIAL AND APPELLATE LAW
THE GRANT BUILDING
44 BROAD STREET, SUITE 600
ATLANTA, GEORGIA 30303

JOHN D. HADDEN
(404) 939-4525
JHADDEN@HADDENFIRM.COM

May 28, 2021
Clerk, United States Supreme Court
1 First Street NE
Washington, D.C. 20543
Re: No. 20-1560, Lowndes County Health Services, LLC v. Gregory Copeland, et al.
Dear Sir:
We are counsel for the Respondents in the above-styled case. Because the opinion of Georgia’s
intermediate court, the Court of Appeals, plainly shows why this case does not merit review by this
Court, Respondents waive the right to file a brief in opposition as provided by Rule 15.5. The
Respondents respectfully request leave to file an opposition to this petition if the Court requests such a
response.
Sincerely yours,

cc:

/s/ John D. Hadden

/s/ Kenneth L. Connor

John D. Hadden
Counsel of Record
44 Broad Street, NW, Suite 600
Atlanta, Georgia 30303
(404) 939-4525
jhadden@haddenfirm.com

Kenneth L. Connor
507 Courthouse Lane
Augusta, Georgia 30901
(706) 755 8378
ken@theconnorfirm.com

Via United States Mail, First Class, and email
Philip S. Goldberg (pgoldberg@shb.com)
Christopher E. Appell (cappel@shb.com)
Kateland R Jackson (krjackson@shb.com)
Shook, Hardy & Bacon, LLP
1800 K Street, NW, Suite 1000
Washington, D.C. 20006
R. Page Powell (ppowell@huffpowellbailey.com)
Huff, Powell & Bailey, LLC
999 Peachtree Street, Suite 950
Atlanta, Georgia 30309

Robert M. Anspach (ranspach@anspachlaw.com)
Anspach Meek Ellenberger, LLP
300 Madison Avenue, Suite 1600
Toledo, Ohio 43604
Bret Moore (bret@broughtonlaw.com)
Broughton Law, LLC
305 West Wieuca Road, NE
Atlanta, Georgia 30342

